GR-90-99-009
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the
City of Seattle Police Department, Washington
GR-90-99-009
 
December 1998
 
* * * * *
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of three
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the City of Seattle Police Department (SPD), Washington. The
SPD received a grant of $300,000 to hire four sworn officers under the Accelerated Hiring,
Education and Deployment Program (AHEAD) and $20,000 to train the four sworn officers
hired under the AHEAD grant under the Troops to COPS Program. In addition, the SPD
received $300,000 to redeploy 25 sworn officer full-time equivalents (FTEs) to community
policing under the Making Officer Deployment Program for 1995 (MORE 95). The purpose of
the additional officers under each of the grant programs is to enhance community policing
efforts. 
In brief, our audit determined that the SPD violated the following grant conditions:


The SPD could not demonstrate or document the redeployment of 25.0 sworn officer FTEs to
    community policing under the MORE 95 grant. This resulted in $120,009 of unsupported
    costs. The grant award period expired on June 30, 1998 and an extension was not granted.
    Therefore, the remaining grant award balance ($179,991) should be deobligated and the
    funds put to better use. In addition, the SPD determined that the maximum number of sworn
    officer FTEs that possibly could be redeployed under this grant is 14.22 sworn officer
    FTEs. Therefore, if an extension is granted, the grant award amount should be reduced to
    $171,000 (14.22 actual FTEs/25 FTEs from grant = 57% x $300,000).


The SPD claimed no reimbursements on the Troops to COPS grant through June 30, 1998,
    despite the fact that the grant completion date was December 31, 1997. The SPD made the
    decision to claim no reimbursements for expenses under the grant because of the difficulty
    of transferring costs incurred in 1995. The COPS office should deobligate the $20,000
    grant based on the SPD's decision and put the funds to better use.


The SPD did not comply with the following grant report requirements: the Department
    Initial Report was inaccurate; the 1996 Progress Report for the MORE 95 grant was not
    submitted as required; and the Financial Status Reports were not submitted for quarters
    having no activity. 

These items are discussed in detail in the Findings and Recommendations section of the
report. Our scope and methodology appear in Appendix II.
#####